                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

     Case Number: A06120064                                            11         Page 1 of 1


         In December 2006, we received a n allegation of plagiarism about a proposal1
         submitted to NSF by a PI2 and two co-PIs.3 After our analysis using plagiarism
         software, we found a small amount4 of text copied from three sources. We wrote the
         PI and co-PISto request their explanations for the copied text.

         The PI and co-PIS agreed the PI was responsible for the inclusion of the questioned
         text into their proposal. The PI acknowledged she copied the words from the
         literature, but she thought she had given appropriate credit by including those
         sources in her references. While it is true she referenced two of the three sources,
         the citations to those sources appearing after the copied, verbatim text were within
         a group of citations and were not indicative to the reader that she had taken text
         verbatim from one of those references. However, there were also instances where
         she provided a single citation to the source after a copied sentence. Irrespective of
         the citations, none of her copied text appeared within quotation marks, which the
         PI acknowledged.

         Given the small amount of copied text, the PI'S contrition and acknowledgement of
         her failure to use quotation marks, we conclude this matter does not require an
         investigation. We sent the PI a letter explaining the proper way to cite verbatim
         text. Accordingly, this case is closed.




                                                                                                 '11
II
 NSF OIG Form 2 (11102)
